No. 20-828
IN THE

Supreme Court of the United States
FEDERAL BUREAU OF INVESTIGATION, ET AL.,

Petitioners,
v.
YASSIR FAZAGA, ET AL.,

Respondents.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief for Constitutional Law Professors as Amici Curiae in Support of
Respondents contains 5,387 words and complies with the word limitation established
by Rule 33.1(g)(xiv) of the Rules of this Court.
Dated: September 28, 2021

/s/ Akiva Shapiro
Akiva Shapiro

